                                              OFFICE OF WORKERS’
                                              COMPENSATION PROGRAMS


Office of Inspector General—Office of Audit




                                              LONGSHORE AND HARBOR WORKERS’
                                              COMPENSATION ACT SPECIAL FUND
                                              FINANCIAL STATEMENTS AND
                                              INDEPENDENT AUDITORS’ REPORT
                                              September 30, 2009 and 2008


                                               This report was prepared by KPMG, LLP, under contract to the U.S.
                                               Department of Labor, Office of Inspector General, and by acceptance, it
                                               becomes a report of the Office of Inspector General.




                                                                                     Assistant Inspector General for Audit



                                                                                  Date:           March 09, 2010
                                                                                  Report Number: 22-10-004-04-432
                                  Longshore and Harbor Workers’ Compensation Act Special Fund
                                          Financial Statements and Independent Auditors’ Report



                       LONGSHORE AND HARBOR WORKERS’
                        COMPENSATION ACT SPECIAL FUND


                                    Table of Contents



                                                                                        Page
ACRONYMS                                                                                   iii
Management’s Discussion and Analysis
  Mission and Organizational Structure                                                     1
  Financial Highlights                                                                     2
  Performance Goals and Results                                                            3
  Internal Controls and Systems                                                            3
  Known Risks and Uncertainties                                                            4
  Limitations of the Financial Statements                                                  5
Independent Auditors’ Report                                                               7
FINANCIAL STATEMENTS
  Balance Sheets                                                                          11
  Statements of Net Cost                                                                  12
  Statements of Changes in Net Position                                                   13
  Statements of Budgetary Resources                                                       14

NOTES TO THE FINANCIAL STATEMENTS
  Note 1 – Summary of Significant Accounting Policies                                     15
  Note 2 – Funds with U.S. Treasury                                                       18
  Note 3 – Investments                                                                    19
  Note 4 – Accounts Receivable, Net of Allowance                                          20
  Note 5 – Other Liabilities                                                              21
  Note 6 – Transfers to OWCP                                                              21
  Note 7 – Status of Budgetary Resources                                                  22
  Note 8 – Reconciliation of Budgetary Resources Obligated
           to Net Cost of Operations                                                      23
  Note 9 – Concentration of Risk                                                          23
  Note 10– Subsequent Event                                                               24




                                            U.S. Department of Labor—Office of Inspector General
                                             i                  Report Number: 22-10-004-04-432
             Longshore and Harbor Workers’ Compensation Act Special Fund
                     Financial Statements and Independent Auditors’ Report




THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




                      U.S. Department of Labor—Office of Inspector General
                       ii                 Report Number: 22-10-004-04-432
                               Longshore and Harbor Workers’ Compensation Act Special Fund
                                       Financial Statements and Independent Auditors’ Report



                       LONGSHORE AND HARBOR WORKERS’
                        COMPENSATION ACT SPECIAL FUND


                                    Acronyms



DCCA     District of Columbia Workmen’s Compensation Act

DLHWC    Division of Longshore and Harbor Workers’ Compensation

DOL      Department of Labor

ESA      Employment Standards Administration

FY       Fiscal Year

LHWCA    Longshore and Harbor Workers’ Compensation Act

OMB      Office of Management and Budget

OWCP     Office of Workers’ Compensation Programs

U.S.C.   United States Code




                                        U.S. Department of Labor—Office of Inspector General
                                         iii                Report Number: 22-10-004-04-432
             Longshore and Harbor Workers’ Compensation Act Special Fund
                     Financial Statements and Independent Auditors’ Report




THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




                      U.S. Department of Labor—Office of Inspector General
                         iv               Report Number: 22-10-004-04-432
                               Longshore and Harbor Workers’ Compensation Act Special Fund
                                       Financial Statements and Independent Auditors’ Report

                       LONGSHORE AND HARBOR WORKERS’
                        COMPENSATION ACT SPECIAL FUND
                         Management’s Discussion and Analysis
                             September 30, 2009 and 2008



Mission and Organizational Structure

The Longshore and Harbor Workers’ Compensation Act (LHWCA) provides medical
benefits, compensation for lost-wages and rehabilitation services for job-related injuries,
diseases, or death of private-sector workers in certain maritime and related employment.
Generally, benefits are paid directly from private funds by an authorized self-insured
employer or through an authorized insurance carrier. Cases meeting the requirements of
the Longshore and Harbor Workers’ Compensation statute are paid from the Longshore
and Harbor Workers’ Compensation Act Special Fund (the Fund) comprised primarily of
employer contributions (assessments) and administered by the Division of Longshore
and Harbor Workers’ Compensation (DLHWC). In fiscal years (FY) 2009 and 2008, 4,376
and 4,533 injured workers and dependents received compensation benefits from the
Fund.

The reporting entity is the Fund. Organizationally the Fund is administered by the DOL,
Employment Standards Administration (ESA), Office of Workers’ Compensation
Programs (OWCP),DLHWC. The DLHWC has direct responsibility for administration of
the Fund. On November 8, 2009, the ESA was abolished and OWCP now reports directly
to the Office of the Secretary of Labor. The Fund supports the program mission by
providing compensation, and in certain cases, medical care payments to employees
disabled from injuries which occurred on the navigable waters of the United States, or in
adjoining areas used for loading, unloading, repairing, or building a vessel. The Fund
also extends benefits to dependents if any injury resulted in the employee’s death.

Additionally, Section 10(h) of the LHWCA provides annual wage increase compensation
(cost of living adjustments). Fifty percent of this annual wage increase for pre-1972
compensation cases is paid by Federal appropriated funds, and fifty percent is paid by
the Fund through the annual assessment. Appropriated funding for Section 10(h) is not
reflected in the accompanying financial statements. Appropriated funding is reflected in
the Federal Employees Compensation Act’s Special Benefit Fund.

Administrative services for operating the Fund are provided by the ESA through direct
Federal Appropriations. Appropriated funding for administrative services is not reflected
in the accompanying financial statements.




                                         U.S. Department of Labor—Office of Inspector General
                                            1                Report Number: 22-10-004-04-432
                              Longshore and Harbor Workers’ Compensation Act Special Fund
                                      Financial Statements and Independent Auditors’ Report

                       LONGSHORE AND HARBOR WORKERS’
                        COMPENSATION ACT SPECIAL FUND
                        Management’s Discussion and Analysis
                             September 30, 2009 and 2008



Financial Highlights

The majority of the revenue of the Fund is generated through annual recurring
assessments paid by self-insured employers and insurance carriers and totaled
$129,934,530 in fiscal year 2009 and $126,784,708 for fiscal year 2008. During fiscal
years 2009 and 2008, recoveries were made for the Fund by independent contractors
due to reconciliation activities on Forms LS-513, Report of Payments (used in the
calculation of the annual assessment), and negotiation/collection of past due
assessments. The reconciliation activities recovered $4,904,689 in fiscal year 2009 and
$410,145 in fiscal year 2008 for the Fund. These recoveries have reduced, and will
continue to reduce, carrier assessments and are reflected in the Assessments line on the
Statements of Changes in Net Position.

Investment income for the Fund was $43,963 for fiscal year 2009 compared to
$1,045,091 for fiscal year 2008. The average interest rate earned during fiscal year 2009
was 0.13% compared to 2.68% for fiscal year 2008. The Fund’s costs remained relatively
stable compared to fiscal year 2008; $128,991,789 for fiscal year 2009 compared to
$130,084,569 for fiscal year 2008.

The sources of payments into the Fund include: fines and penalties levied under the Act;
payments by employers of $5,000 for each death case where there is no survivor entitled
to the benefits; interest payments on Fund investments; and by far the largest source,
payment of annual assessments by self-insured employers and insurance carriers.

Proceeds of the Special Fund are used for payments under: section 8(f) for second
injury claims; section 10(h) for initial and subsequent annual adjustments in
compensation for permanent total disability or related death from injuries which occurred
prior to the effective date of the 1972 LHWCA amendments; sections 39(c) and 8(g) for
the procurement of medical and vocational rehabilitation services for permanently
disabled employees and to provide a maintenance allowance to workers undergoing
rehabilitation; section 18(b) for compensation to injured workers in cases of employer
default; and section 7(e) for the cost of certain medical examinations.




                                        U.S. Department of Labor—Office of Inspector General
                                           2                Report Number: 22-10-004-04-432
                                 Longshore and Harbor Workers’ Compensation Act Special Fund
                                         Financial Statements and Independent Auditors’ Report

                        LONGSHORE AND HARBOR WORKERS’
                         COMPENSATION ACT SPECIAL FUND
                          Management’s Discussion and Analysis
                               September 30, 2009 and 2008


Performance Goals and Results

DLHWC special fund supports the Department of Labor’s Strategic Goal 4 –
Strengthened Economic Protections. This goal broadly promotes the economic security
of workers and families. In particular, the DLHWC program supports Performance Goal
4B – Reduce the Consequences of Work-Related Injuries. The Department of Labor
plays a large role in ensuring that worker benefits are protected and that employers
administer benefit programs in an appropriate way. The DLHWC program assists in
meeting this outcome goal by establishing the long term performance goal of ensuring
sufficient funds are assessed to fund the annual payments, and by prompt payment to
the beneficiaries. These targets were achieved. The assessments were sufficient to
cover the costs, and no beneficiaries suffered a delayed payment.

Internal Controls and Systems

The DLHWC’s Branch of Financial Management and Insurance is a very small unit
comprised of six employees and one supervisor, all working in very close proximity to
each other. Unethical behavior is guarded against by carefully segregated duties,
carefully assigned roles which are password protected, and by close supervision. Much
of the oversight, evaluation, monitoring, and control and almost all of the supervisory
activity is informal, done on a face-to-face basis. Similarly, each of the district offices is in
itself a small unit, operating in the same fashion as the Branch of Financial Management
and Insurance.

Management communicates all procedural, policy, and operating goals to staff by means
of weekly staff meetings, a written procedure manual, frequent e-mail communication,
and frequent individual communications regarding changes, problems and issues.

Statutes provide the formal standards where these are applicable, such as privacy
statutes, cash handling procedures and conflict of interest regulations. All codes,
statutes, and regulations governing the conduct of Federal employees apply to all
Longshore Division employees.




                                            U.S. Department of Labor—Office of Inspector General
                                               3                Report Number: 22-10-004-04-432
                               Longshore and Harbor Workers’ Compensation Act Special Fund
                                       Financial Statements and Independent Auditors’ Report

                      LONGSHORE AND HARBOR WORKERS’
                       COMPENSATION ACT SPECIAL FUND
                        Management’s Discussion and Analysis
                             September 30, 2009 and 2008


Cases paid by the Special Fund are paid as a result of a formal Compensation Order
issued by a District Director or Administrative Law Judge, setting forth precisely what
payment is due and to whom the payment is due. Each new case coming in for Special
Fund payment is prepared and reviewed by a total of five different employees before
payment is made, thus ensuring accuracy.

Monthly cash basis statements, monthly case management reports, quarterly review
processes, biweekly payment summaries, the SF-224 report and statement of
differences all provide current, reliable, and accurate information.

Known Risks and Uncertainties

The Longshore Special Fund is the single largest payer of indemnity payments under the
Longshore Act. It pays more than double the next largest payer of benefits. Although
there are nearly 600 authorized insurance carriers and self-insured employers, benefit
payments are concentrated among a relatively few. For example, the top 10 carriers and
self-insurers alone pay over one-half of total industry payments excluding Special Fund
payments. If a major carrier or self-insurer fails, the remainder would face substantially
increased assessments.

The Special Fund is assessed one year at a time for current expenses. There are no
reserve funds for future Special Fund obligations. A series of high value single payment
claims, for example a large number of hearing loss claims resolved in the private sector,
could exceed the predictions used to quantify the assessment. A single, very large claim
from an uninsured, bankrupt employer could have the same effect. Temporary collection
issues could result, necessitating special, unscheduled assessments or other actions to
keep the Special Fund funded for current liabilities.

There are currently no known examples of these risks and uncertainties.




                                        U.S. Department of Labor—Office of Inspector General
                                           4                Report Number: 22-10-004-04-432
                                Longshore and Harbor Workers’ Compensation Act Special Fund
                                        Financial Statements and Independent Auditors’ Report

                        LONGSHORE AND HARBOR WORKERS’
                         COMPENSATION ACT SPECIAL FUND
                          Management’s Discussion and Analysis
                               September 30, 2009 and 2008


Limitations of the Financial Statements

The following limitations are part of the financial statements:

   The financial statements have been prepared to report the financial position and
    results of operations of the entity, pursuant to the requirements of the Chief Financial
    Officers Act of 1990, United States Code (U.S.C.) 3515 (b).
   While the statements have been prepared from the books and records of the Fund in
    accordance with the formats prescribed by the Office of Management and Budget,
    (OMB), the statements are different from the financial reports used to monitor and
    control budgetary resources, which are prepared from the same books and records.
   The statements should be read with the realization that they are for a component of
    the U.S. Government, a sovereign entity, that liabilities cannot be liquidated without
    the enactment of an appropriation, and that the payment of all liabilities other than for
    contracts can be abrogated by the sovereign entity.




                                          U.S. Department of Labor—Office of Inspector General
                                             5                Report Number: 22-10-004-04-432
        Longshore and Harbor Workers’ Compensation Act Special Fund
                Financial Statements and Independent Auditors’ Report




THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




                 U.S. Department of Labor—Office of Inspector General
                        6            Report Number: 22-10-004-04-432
                        Longshore and Harbor Workers’ Compensation Act Special Fund
                                Financial Statements and Independent Auditors’ Report



                            KPMG LLP
                            2001 M Street, NW
                            Washington, DC 20036




                          Independent Auditors’ Report

Mr. Shelby Hallmark, Director
Office of Workers’ Compensation Programs, U.S. Department of Labor

We have audited the accompanying balance sheets of the U.S. Department of
Labor’s (DOL) Longshore and Harbor Workers’ Compensation Act Special Fund
(the Fund) as of September 30, 2009 and 2008, and the related statements of
net cost, changes in net position, and budgetary resources (hereinafter referred
to as “financial statements”) for the years then ended. The objective of our audits
was to express an opinion on the fair presentation of these financial statements.
In connection with our fiscal year 2009 audit, we also considered the Fund’s
internal control over financial reporting and tested the Fund’s compliance with
certain provisions of applicable laws and regulations that could have a direct and
material effect on these financial statements.

SUMMARY

As stated in our opinion on the financial statements, we concluded that the
Fund’s financial statements as of and for the years ended September 30, 2009
and 2008, are presented fairly, in all material respects, in conformity with U.S.
generally accepted accounting principles.

Our consideration of internal control over financial reporting was not designed to
identify all deficiencies in the internal control over financial reporting that might be
deficiencies, significant deficiencies, or material weaknesses. However, we did
not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses as defined in the Internal Control Over
Financial Reporting section of this report.
The results of our tests of compliance with certain provisions of laws and
regulations disclosed no instances of noncompliance or other matters that are
required to be reported under Government Auditing Standards, issued by the
Comptroller General of the United States, and Office of Management and Budget
(OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements,
as amended.




                                           U.S. Department of Labor—Office of Inspector General
                                                  7            Report Number: 22-10-004-04-432
                            KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                            a member of KPMG International, a Swiss cooperative.
                       Longshore and Harbor Workers’ Compensation Act Special Fund
                               Financial Statements and Independent Auditors’ Report




The following sections discuss our opinion on the Fund’s financial statements;
our consideration of the Fund’s internal control over financial reporting; our tests
of the Fund’s compliance with certain provisions of applicable laws and
regulations; and management’s and our responsibilities.

OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying balance sheets of the U.S. Department of
Labor’s Longshore and Harbor Workers’ Compensation Act Special Fund as of
September 30, 2009 and 2008, and the related statements of net cost, changes
in net position and budgetary resources for the years then ended.

In our opinion, the financial statements referred to above present fairly, in all
material respects, the financial position of the U.S. Department of Labor’s
Longshore and Harbor Workers’ Compensation Act Special Fund as of
September 30, 2009 and 2008, and its net costs, changes in net position, and
budgetary resources for the years then ended, in conformity with U.S. generally
accepted accounting principles.

The information in the Management’s Discussion and Analysis is not a required
part of the financial statements, but is supplementary information required by
U.S. generally accepted accounting principles. We have applied certain limited
procedures, which consisted principally of inquiries of management regarding the
methods of measurement and presentation of this information. However, we did
not audit this information and, accordingly, we express no opinion on it.

INTERNAL CONTROL OVER FINANCIAL REPORTING

Our consideration of the internal control over financial reporting was for the
limited purpose described in the Responsibilities section of this report and was
not designed to identify all deficiencies in the internal control over financial
reporting that might be deficiencies, significant deficiencies or material
weaknesses.
A deficiency in internal control exists when the design or operation of a control
does not allow management or employees, in the normal course of performing
their assigned functions, to prevent, or detect and correct misstatements on a
timely basis. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness, yet
important enough to merit attention by those charged with governance. A
material weakness is a deficiency, or combination of deficiencies, in internal
control, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected
on a timely basis.


                                 U.S. Department of Labor—Office of Inspector General
                                        8            Report Number: 22-10-004-04-432
                          Longshore and Harbor Workers’ Compensation Act Special Fund
                                  Financial Statements and Independent Auditors’ Report




In our fiscal year 2009 audit, we did not identify any deficiencies in internal
control over financial reporting that we consider to be material weaknesses as
defined above.


COMPLIANCE AND OTHER MATTERS

The results of certain of our tests of compliance described in the Responsibilities
section of this report disclosed no instances of noncompliance or other matters
that are required to be reported herein under Government Auditing Standards or
OMB Bulletin No. 07-04, as amended.


                                         * * * * *

RESPONSIBILITIES

Management’s Responsibilities. Management is responsible for the financial
statements; establishing and maintaining effective internal control; and complying
with laws and regulations applicable to the Fund.

Auditors’ Responsibilities. Our responsibility is to express an opinion on the
fiscal year 2009 and 2008 financial statements of the Fund based on our audits.
We conducted our audits in accordance with auditing standards generally
accepted in the United States of America; the standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and OMB Bulletin No. 07-04, as amended. Those
standards and OMB Bulletin No. 07-04, as amended, require that we plan and
perform the audits to obtain reasonable assurance about whether the financial
statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures
that are appropriate in the circumstances, but not for the purpose of expressing
an opinion on the effectiveness of the Fund’s internal control over financial
reporting. Accordingly, we express no such opinion.

An audit also includes:

   Examining, on a test basis, evidence supporting the amounts and disclosures
    in the financial statements;

   Assessing the accounting principles used and significant estimates made by
    management; and

   Evaluating the overall financial statement presentation.


                                   U.S. Department of Labor—Office of Inspector General
                                          9            Report Number: 22-10-004-04-432
                       Longshore and Harbor Workers’ Compensation Act Special Fund
                               Financial Statements and Independent Auditors’ Report




We believe that our audits provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2009 audit, we considered the Fund’s
internal control over financial reporting by obtaining an understanding of the
Fund’s internal control, determining whether internal controls had been placed in
operation, assessing control risk, and performing tests of controls as a basis for
designing our auditing procedures for the purpose of expressing our opinion on
the financial statements. We did not test all controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of
1982. The objective of our audit was not to express an opinion on the
effectiveness of the Fund’s internal control over financial reporting. Accordingly,
we do not express an opinion on the effectiveness of the Fund’s internal control
over financial reporting.

As part of obtaining reasonable assurance about whether the Fund’s fiscal year
2009 financial statements are free of material misstatement, we performed tests
of the Fund’s compliance with certain provisions of laws and regulations,
noncompliance with which could have a direct and material effect on the
determination of the financial statement amounts, and certain provisions of other
laws and regulations specified in OMB Bulletin No. 07-04, as amended. We
limited our tests of compliance to the provisions described in the preceding
sentence, and we did not test compliance with all laws and regulations applicable
to the Fund. However, providing an opinion on compliance with laws and
regulations was not an objective of our audit and, accordingly, we do not express
such an opinion.

This report is intended solely for the information and use of DOL’s management,
DOL’s Office of Inspector General, OMB, the U.S. Government Accountability
Office, and the U.S. Congress, and is not intended to be and should not be used
by anyone other than these specified parties.




February 19, 2010




                                 U.S. Department of Labor—Office of Inspector General
                                        10           Report Number: 22-10-004-04-432
                                      Longshore and Harbor Workers’ Compensation Act Special Fund
                                              Financial Statements and Independent Auditors’ Report




                       LONGSHORE AND HARBOR WORKERS’
                        COMPENSATION ACT SPECIAL FUND
                                      Balance Sheets
                               September 30, 2009 and 2008


                         Assets                                  2009              2008
Intra-governmental assets:
   Funds with U.S. Treasury (Note 2)                      $    2,085,008          735,164
   Investments (Note 3)                                       58,969,000       61,905,000
           Total intra-governmental assets                    61,054,008       62,640,164
Accounts receivable, net of allowance (Note 4)                 3,756,224        7,970,749
           Total assets                                   $ 64,810,232         70,610,913
             Liabilities and Net Position
Liabilities:
  Accrued benefits payable                                $           —         4,570,584
  Deferred revenue                                            31,074,977       31,227,620
  Other liabilities (Note 5)                                   7,330,991        7,568,352
           Total liabilities                                  38,405,968       43,366,556
Net position:
  Cumulative results of operations                            26,404,264       27,244,357
           Total liabilities and net position             $ 64,810,232         70,610,913


See accompanying notes to financial statements.




                                                U.S. Department of Labor—Office of Inspector General
                                                 11                 Report Number: 22-10-004-04-432
                                     Longshore and Harbor Workers’ Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report



                        LONGSHORE AND HARBOR WORKERS’
                         COMPENSATION ACT SPECIAL FUND
                                    Statements of Net Cost
                        Years ended September 30, 2009 and 2008


                                                                 2009               2008
Special fund cost of operations:
  Second injury compensation, Section 8(f)               $   116,738,199        119,131,585
  Wage increase compensation, Section 10(h)                    1,656,152          1,672,889
  Compensation payment for self-insurer in default,
    Section 18(b)                                              6,992,915           6,035,016
  Rehabilitation services, Section 39 (c)                      2,831,728           2,330,366
  Medical Services (e)                                             3,500                  —
  Bankrupt self-insured employers                                769,295             914,713
           Net cost of operations                        $   128,991,789        130,084,569


See accompanying notes to financial statements.




                                              U.S. Department of Labor—Office of Inspector General
                                               12                 Report Number: 22-10-004-04-432
                                     Longshore and Harbor Workers’ Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report



                          LONGSHORE AND HARBOR WORKERS’
                           COMPENSATION ACT SPECIAL FUND
                             Statements of Changes in Net Position
                          Years ended September 30, 2009 and 2008


                                                                  2009                 2008
Cumulative results of operations, beginning               $     27,244,357           30,887,999
Budgetary financing sources:
  Transfers in/out without reimbursement (Note 6)               (2,101,000)          (2,022,047)
  Non-exchange revenues:
    Interest                                                        43,963           1,045,091
    Fines and Penalties                                            274,203             633,175
    Assessments                                                129,934,530         126,784,708
            Total non-exchange revenues                        130,252,696         128,462,974
Total financing sources                                        128,151,696         126,440,927
Net cost of operations                                      (128,991,789)         (130,084,569)
            Net position, end of period                   $   26,404,264            27,244,357


See accompanying notes to financial statements.




                                              U.S. Department of Labor—Office of Inspector General
                                               13                 Report Number: 22-10-004-04-432
                                Longshore and Harbor Workers’ Compensation Act Special Fund
                                        Financial Statements and Independent Auditors’ Report



                          LONGSHORE AND HARBOR WORKERS’
                           COMPENSATION ACT SPECIAL FUND
                                Statements of Budgetary Resources
                         Years ended September 30, 2009 and 2008


                                                                    2009                 2008
Budgetary resources:
  Unobligated balance, brought forward                     $      58,069,554          66,456,691
  Budget authority
    Appropriations received (assessments)                       133,971,646          122,377,055
    Spending authority from offsetting collections                       —               143,902
  Temporary not available pursuant to Public Law                         —                20,480
           Total budgetary resources                       $    192,041,200          188,998,128
Status of Budgetary Resources:
  Obligations Incurred (Note 7)
     Direct                                                $    130,987,218          130,928,574
  Unobligated balances - available:
     Other available - exempt from apportionment                 61,053,982           58,069,554
            Total status of budgetary resources            $    192,041,200          188,998,128
Change in obligated balance:
  Obligated balance, net
    Unpaid obligations, brought forward, October 1         $       4,570,584           3,655,366
  Obligations Incurred, net                                      130,987,218         130,928,574
  Less: Gross Outlays                                           (135,557,802)       (130,013,356)
  Obligated balance, net, end of period
    Unpaid obligations                                     $               —           4,570,584
Outlays:
 Gross Outlays                                             $    135,557,802          130,013,356
 Less: Offsetting collections                                            —              (143,902)
 Net outlays                                               $    135,557,802          129,869,454


See accompanying notes to financial statements.




                                         U.S. Department of Labor—Office of Inspector General
                                            14               Report Number: 22-10-004-04-432
                                 Longshore and Harbor Workers’ Compensation Act Special Fund
                                         Financial Statements and Independent Auditors’ Report

                        LONGSHORE AND HARBOR WORKERS’
                         COMPENSATION ACT SPECIAL FUND
                             Notes to the Financial Statements
                        Years ended September 30, 2009 and 2008


(1)   Summary of Significant Accounting Policies
      The principal accounting policies, which have been followed by the Fund in
      preparing the accompanying financial statements, are set forth below.
      (a)   Reporting Entity
            These financial statements present the financial position, net cost of
            operations, changes in net position and budgetary resources of the Longshore
            and Harbor Workers’ Compensation Act Special Fund (the Fund). The Fund is
            administered by the United States Department of Labor (DOL), Employment
            Standards Administration (ESA), Office of Workers’ Compensation Programs
            (OWCP), Division of Longshore and Harbor Workers’ Compensation program
            (DLHWC). The DLHWC has direct responsibility for administration of the Fund.
            On November 8, 2009, the ESA was abolished and OWCP now reports directly
            to the Office of the Secretary of Labor. The Fund offers compensation, and in
            certain cases, medical care payments to employees disabled from injuries
            which occurred on the navigable waters of the United States, or in adjoining
            areas used for loading, unloading, repairing, or building a vessel. The Fund
            also extends benefits to dependents if any injury resulted in the employee’s
            death.
            Additionally, the Longshore and Harbor Workers’ Compensation Act [Section
            10(h)] provides annual wage increase compensation (cost of living
            adjustments). Fifty percent of this annual wage increase for pre-1972
            compensation cases is paid by Federal appropriated funds and fifty percent is
            paid by the Fund through the annual assessment. Appropriated funding for
            10(h) is not reflected in the accompanying financial statements. Appropriated
            funding is reflected in the Federal Employees Compensation Act’s Special
            Benefit Fund.

      (b)   Basis of Accounting and Presentation
            These financial statements present the financial position, net cost of
            operations, changes in net position and budgetary resources of the Longshore
            and Harbor Workers’ Compensation Act Special Fund (the Fund), in
            accordance with U.S. generally accepted accounting principles and the form
            and content requirements of OMB Circular A-136. These financial statements
            have been prepared from the books and records of the Fund. These financial
            statements are not intended to present, and do not present, the full cost of the

                                          U.S. Department of Labor—Office of Inspector General
                                             15               Report Number: 22-10-004-04-432
                           Longshore and Harbor Workers’ Compensation Act Special Fund
                                   Financial Statements and Independent Auditors’ Report

                  LONGSHORE AND HARBOR WORKERS’
                   COMPENSATION ACT SPECIAL FUND
                       Notes to the Financial Statements
                  Years ended September 30, 2009 and 2008


      Longshore and Harbor Workers’ Compensation Act Program (Longshore
      Program). In addition to the Fund costs presented in these statements, the full
      cost of the Longshore Program would include certain direct costs of ESA in the
      form of salaries and expenses for administration of the Longshore Program
      and allocated costs of ESA and other DOL agencies incurred in support of the
      Longshore Program. The full cost of the Longshore Program is included in the
      DOL Consolidated Financial and related notes. The Fund is considered a
      fiduciary activity of DOL, and is properly disclosed and reported in the
      consolidated statements of DOL as a fiduciary fund.
      U.S. generally accepted accounting principles encompass both accrual and
      budgetary transactions. Under accrual accounting, revenues are recognized
      when earned, and expenses are recognized when a liability is incurred.
      Budgetary accounting facilitates compliance with legal constraints on, and
      controls over, the use of federal funds. These financial statements are different
      from the financial reports, also prepared for the Fund pursuant to OMB
      directives, used to monitor the Fund’s use of budgetary resources.
(c)   Funds with U.S. Treasury
      The Fund does not maintain cash in commercial bank accounts. Cash receipts
      and disbursements are processed by the U.S. Treasury. The Fund balance
      with U.S. Treasury is available to pay current liabilities and finance authorized
      purchase commitments.
(d)   Investments
      Investments in U.S. Government securities are reported at cost, net of
      unamortized premiums or discounts, which approximates market value.
      Premiums or discounts are amortized on a straight-line basis, which
      approximates the effective interest method. The Fund’s intent is to hold
      investments to maturity, unless they are needed to finance claims or otherwise
      sustain the operations of the Fund. No provision is made for unrealized gains
      or losses on these securities because they are held to maturity.




                                     U.S. Department of Labor—Office of Inspector General
                                        16               Report Number: 22-10-004-04-432
                          Longshore and Harbor Workers’ Compensation Act Special Fund
                                  Financial Statements and Independent Auditors’ Report

                  LONGSHORE AND HARBOR WORKERS’
                   COMPENSATION ACT SPECIAL FUND
                       Notes to the Financial Statements
                  Years ended September 30, 2009 and 2008


(e)   Accounts Receivable, Net of Allowance
      The amounts due as receivables are stated net of an allowance for
      uncollectible accounts. The allowance is estimated based on past experience
      in the collection of the receivables and an analysis of the outstanding
      balances. Accounts receivable are comprised of assessments receivable and
      Fund benefit overpayments to individuals primarily from amended
      compensation orders and corrections of payment computations.
(f)   Accrued Benefits Payable
      The Fund provides compensation and medical benefits for work related injuries
      to workers in certain maritime employment. The Fund recognizes a liability for
      disability benefits payable to the extent of unpaid benefits applicable to the
      current period. It does not include a liability for incurred but not reported
      claims. Ultimate responsibility for payment of such claims rests with the
      employer organizations. All disability benefits due and payable as of
      September 30, 2009 were paid as of September 30, 2009.
(g)   Deferred Revenue
      Deferred revenues represent the unearned assessment revenue as of
      September 30, the Fund’s accounting year end. The annual assessments
      cover a calendar year and accordingly, the portion extending beyond
      September 30 has been deferred. Deferred revenues reported on the balance
      sheets are considered “Other Liabilities” under OMB Circular A-136.
(h)   Financing Sources Other Than Exchange Revenue
      Non-exchange revenues arise from the Federal government’s power to
      demand payments from and receive donations from the public. Non-exchange
      revenues are recognized by the Fund for assessments and penalties levied
      against the public and interest income from investments.
      The Fund’s primary source of revenue is annual assessments levied on
      insurance carriers and self-insured employers. Assessments are recognized as
      non-exchange revenue when due. Included in assessment revenues in the
      accompany Statement of Changes and Net Position are recoveries of amounts
      based on previously under-reported payments by self-insures or carriers.
      These reassessments primarily result from the application of reconciliation
      procedures on reported carrier data. Recoveries amounted to $4,904,689 and

                                   U.S. Department of Labor—Office of Inspector General
                                      17               Report Number: 22-10-004-04-432
                                   Longshore and Harbor Workers’ Compensation Act Special Fund
                                           Financial Statements and Independent Auditors’ Report

                        LONGSHORE AND HARBOR WORKERS’
                         COMPENSATION ACT SPECIAL FUND
                               Notes to the Financial Statements
                       Years ended September 30, 2009 and 2008


            $410,145 for the fiscal years ended September 30, 2009 and 2008. The Fund
            receives interest on Fund investments and on Federal funds in the possession
            of non-Federal entities. The Fund also receives revenue from penalties
            assessed in accordance with various sections of the LHWCA.
(2)   Funds with U.S. Treasury
      Funds with U.S. Treasury at September 30, 2009 and 2008 consisted of cash
      deposits of $2,085,008 and $735,164, respectively. These cash deposits at
      September 30, 2009 and 2008 included $168 and $267, respectively, which are
      being held as security by authority of Section 32 of the Longshore and Harbor
      Workers’ Compensation Act. The funds held as security by authority of Section 32
      of the LHWCA relate to the default of self-insured employers and are available for
      payment of compensation and medical benefits to covered employees of the
      defaulted companies.
      Funds with U.S. Treasury at September 30, 2009 consisted of the following:
                                                Entity Assets
                           Unobligated   Unobligated     Obligated
                            Balance       Balance       Balance Not    Total       Non-entity
      (In Dolars)           Available    Unavailable Yet Disbursed Entity Assets    Assets       Total

      Special Fund     $           —             —      2,085,008     2,085,008           —     2,085,008



      Funds with U.S. Treasury at September 30, 2008 consisted of the following:
                                                Entity Assets
                           Unobligated   Unobligated     Obligated
                            Balance       Balance       Balance Not    Total       Non-entity
      (In Dollars)          Available    Unavailable Yet Disbursed Entity Assets    Assets        Total

      Special Fund     $           —             —        735,164       735,164            —      735,164




                                               U.S. Department of Labor—Office of Inspector General
                                                  18               Report Number: 22-10-004-04-432
                                     Longshore and Harbor Workers’ Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report

                           LONGSHORE AND HARBOR WORKERS’
                            COMPENSATION ACT SPECIAL FUND
                                 Notes to the Financial Statements
                           Years ended September 30, 2009 and 2008




(3)   Investments
      Investments at September 30, 2009 and 2008 consisted of the following:
                                                              September 30, 2009
                                           Face            Premium           Net           Market
      (In Dollars)                         Value          (Discount)        Value          Value
      Intragovernmental securities:
         Marketable                 $    58,969,000              —        58,969,000      58,969,000


                                                               September 30, 2008
                                            Face            Premium           Net           Market
       (In Dollars)                         Value          (Discount)        Value          Value
       Intragovernmental securities:
          Marketable                 $   61,905,000               —       61,905,000      61,905,000

      Investments of $7,330,823 and $7,296,300 at September 30, 2009 and 2008,
      respectively, are being held as security by authority of Section 32 of the Longshore
      and Harbor Workers’ Compensation Act. These investments are available for
      payment of compensation and medical benefits to covered employees of the
      defaulted companies. Investments at September 30, 2009 and 2008 consist of
      overnight securities. Investments at September 30, 2009 bear an interest rate of
      0.07% compared to an interest rate of 0.33% for September 30, 2008. Interest rates
      on securities bought and sold during fiscal year 2009 ranged from 0.01% to 1.03%
      compared to 0.25% to 4.95% for fiscal year 2008.




                                                   U.S. Department of Labor—Office of Inspector General
                                                      19               Report Number: 22-10-004-04-432
                                     Longshore and Harbor Workers’ Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report

                          LONGSHORE AND HARBOR WORKERS’
                           COMPENSATION ACT SPECIAL FUND
                                 Notes to the Financial Statements
                         Years ended September 30, 2009 and 2008


(4)   Accounts Receivable, Net of Allowance
      Accounts receivable at September 30, 2009 and 2008 consisted of the following:


       (In Dollars)                                                  2009                      2008
       Benefit overpayments                              $           2,246,930          $      2,386,109
       Assessments receivables                                       2,564,757                 6,889,971
       Less: allowance for doubtful accounts                        (1,055,463)               (1,305,331)
          Total accounts receivable from the public, net $           3,756,224          $      7,970,749




      Assessments receivable represent the unpaid annual assessments from the current
      and prior years. Accounts receivable from overpayments to claimants arise primarily
      from amended compensation orders and corrections of payment computations.
      These receivables are being primarily recovered by partial and total withholding of
      benefit payments.
      Changes in the allowance for doubtful accounts during fiscal year 2009 and fiscal
      year 2008 consisted of the following:
                                                                    2009
                                   Allowance         Write     Revenue                          Allowance
      (In Dollars)               October 1, 2008     Offs     Adjustment   Bad Debt         September 30, 2009

      Entity assets:
        Benefit overpayments $         (960,832)          -            -      33,607                 (927,225)
        Assessment receivable          (344,499)     36,107            -     180,154                 (128,238)

                            $        (1,305,331)     36,107            -     213,761                (1,055,463)

                                                                    2008
                                   Allowance         Write     Revenue                          Allowance
      (In Dollars)               October 1, 2007     Offs     Adjustment   Bad Debt         September 30, 2008

      Entity assets:
        Benefit overpayments $         (686,805)          -            -    (274,027)                 (960,832)
        Assessment receivable          (580,816)     82,405            -     153,912                  (344,499)

                            $        (1,267,621)     82,405            -    (120,115)               (1,305,331)




                                                   U.S. Department of Labor—Office of Inspector General
                                                      20               Report Number: 22-10-004-04-432
                                       Longshore and Harbor Workers’ Compensation Act Special Fund
                                               Financial Statements and Independent Auditors’ Report


                            LONGSHORE AND HARBOR WORKERS’
                             COMPENSATION ACT SPECIAL FUND
                                  Notes to the Financial Statements
                            Years ended September 30, 2009 and 2008


(5)   Other Liabilities
      Other liabilities at September 30, 2009 and 2008 consisted of the following current
      liabilities:
      (In Dollars)                                                  2009             2008
      Other liabilities:
        Assessment overpayments by carriers                  $          —           271,785
        Defaulted employer liability:
          Held in investments                                     7,330,823        7,296,300
          Held in cash                                                  168              267
                                                                  7,330,991        7,296,567
                     Total other liabilities                 $    7,330,991        7,568,352


      Assessment overpayments are to be refunded upon request or applied to reduce
      future assessments.
      Defaulted employer liability relates to funds and investments held by the Longshore
      Special Fund, which are being held as security by authority of Section 32 of the Act.
      These funds and investments are available for compensation and medical benefits
      to covered employees of the defaulted companies.
(6)   Transfers to OWCP
      The Fund reimburses the Office of Workers’ Compensation Programs (OWCP) (a
      related entity within the Department of Labor) for rehabilitation services provided to
      eligible claimants and certain direct expenses associated with administrative
      support of the Fund. Approved transfers out to the OWCP were $2,101,000 in 2009
      and $2,022,047 in 2008. Transfers are made from the Special Fund in accordance
      with sections 39(c), 44(d), and 44(j) of the Longshore and Harbor Workers’
      Compensation Act.




                                                U.S. Department of Labor—Office of Inspector General
                                                   21               Report Number: 22-10-004-04-432
                                     Longshore and Harbor Workers’ Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report


                           LONGSHORE AND HARBOR WORKERS’
                            COMPENSATION ACT SPECIAL FUND
                                Notes to the Financial Statements
                           Years ended September 30, 2009 and 2008


(7)   Status of Budgetary Resources
      (a)   Apportionment Categories of Obligations Incurred
            (In Dollars)                                         2009              2008
            Direct Obligations:
              Exempt from apportionment                $ 130,987,218           130,928,574


      (b)   Explanation of Differences Between the Statement of Budgetary
            Resources and the Budget of the United States Government
            A reconciliation of budgetary resources, obligations incurred and outlays, as
            presented in the Statement of Budgetary Resources to amounts included in the
            Budget of the United States Government for the year ended September 30,
            2008 is shown below. Because the OWCP administers the District of Columbia
            Workmen’s Compensation Act of 1928 (DCCA), which was incorporated under
            Section 44 of the LHWCA Act, DCCA is presented in the reconciliation to
            agree to the budget. The financial statements for the DCCA are presented in a
            separate report.


                                                                            2008
                                                                Budgetary Obligations
             (Dollars in Millions)                              Resources Incurred    Outlays
             Statement of Budgetary Resources - LSHW $              189         131         130
             Statement of Budgetary Resources - DCCA                 15           10         10
             Total Statement of Budgetary Resources         $       204         141         140

             Budget of the United States Government         $       204         141         140




                                              U.S. Department of Labor—Office of Inspector General
                                                 22               Report Number: 22-10-004-04-432
                                 Longshore and Harbor Workers’ Compensation Act Special Fund
                                         Financial Statements and Independent Auditors’ Report


                        LONGSHORE AND HARBOR WORKERS’
                         COMPENSATION ACT SPECIAL FUND
                             Notes to the Financial Statements
                       Years ended September 30, 2009 and 2008


(8)   Reconciliation of Budgetary Resources Obligated to Net Cost of Operations


                                                                  2009               2008
Budgetary resources obligated:
  Obligations incurred                                      $ 130,987,218       130,928,574
Other resources:
  Transfers out                                                 (2,101,000)       (2,022,047)
           Total resources used to finance activities         128,886,218       128,906,527
Resources used to finance items not part of the
      net cost of operations
  Resources that finance the acquisition of assets                       —          (143,902)
           Total resources used to finance items not part
             of the net cost of operations                               —          (143,902)
           Total resources used to finance the net cost
             of operations                                    128,886,218       128,762,625
Components not requiring or generating resources:
  Revaluation of assets and liabilities                           (33,607)           960,833
  Benefit overpayments                                            139,178            361,111
           Total components of net cost of operations
             that will not require or generate resources
                 in the current period                            105,571         1,321,944
           Net cost of operations                           $ 128,991,789       130,084,569


 (9) Concentration of Risk
      The Fund makes assessments to authorized insurers and self-insurers one year at
      a time for current expenses; there is no reserve for future Fund obligations. In
      keeping with the requirement of section 44 of the Longshore Act, obligations are
      paid as they are incurred. Assessments are based on compensation and medical
      benefits paid in the prior calendar year.




                                           U.S. Department of Labor—Office of Inspector General
                                              23               Report Number: 22-10-004-04-432
                           Longshore and Harbor Workers’ Compensation Act Special Fund
                                   Financial Statements and Independent Auditors’ Report


                    LONGSHORE AND HARBOR WORKERS’
                     COMPENSATION ACT SPECIAL FUND
                        Notes to the Financial Statements
                    Years ended September 30, 2009 and 2008


(10) Subsequent Event
     The Employment Standards Administration (ESA) was dissolved on November 8,
     2009. The Office of Workers’ Compensation Programs (OWCP) now report directly
     to the Office of the Secretary.




                                    U.S. Department of Labor—Office of Inspector General
                                       24               Report Number: 22-10-004-04-432
